f>

Supreme Court. U.S.
FILED

JUN 0 5 2020

;v

5 ft
No:

3fa t&e
Supreme Court of tfje GSntteb States
STEPHEN HENDERSON,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Stephen Henderson
Reg. # 34996-044
USP Coleman II
P.O. Box 1034
Coleman, Florida 33521

n

H

■IM I iv] u
M
vi ILl
^

S>

£jb

m

ru

t

iSi

i.

arrifo]

^^

OFFICE OF THE CLERK

QUESTIONS PRESENTED FOR REVIEW
Should this Court’s decision in United States v. Jones, 132 S.Ct. 945 (2012),
(placement of GPS monitoring on a vehicle and cells-site tracking without a
warrant constitutes an improper search) and Carpenter v. United States, 138
S. CT. 2206 (2018) (individuals have a reasonable expectation of privacy in
their cells-site location information and that obtaining such information
constitutes a search requiring a warrant), be applied retroactively under
Title 28 U.S.C. § 2253.
Should a writ of certiorari be granted in light of Miller-El v. Cockrell, 123 S.
Ct. 1029 (2003).

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
Eight Circuit, the Honorable Shaw, C, District Judge, Eastern District of Missouri,
Eastern Division.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

iii

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

v

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and
Regulations Involved.......................................................

2

Statement of the Case

4

Reasons for Granting the Writ

5

Should this Court’s decision in United States v. Jones, 132 S.Ct. 945
(2012), (placement of GPS monitoring on a vehicle and cells-site tracking
without a warrant constitutes an improper search) and Carpenter v. United
States, 138 S. CT. 2206 (2018) (individuals have a reasonable expectation
of privacy in their cells-site location information and that obtaining such
information constitutes a search requiring a warrant), be applied
retroactively under Title 28 U.S.C. § 2253 ...................................................

6

Should a writ of certiorari be granted in light of Miller-El v. Cockrell, 123
S. Ct. 1029 (2003).........................................................................................

12

Conclusion

14

Appendix Denial USCA8 COA

A-l

Appendix Denial USDC - 28 U.S.C. § 2253(f)(3)

B-l

IV

TABLE OF AUTHORITIES
Carpenter v. United States, 138 S. CT. 2206 (2018)

5, 11

Chaidez v. United States, 568 U.S. 342 (2013)

9

Davis v. United States, 564 U.S. 229 (2011)

8

Elkins v. United States, 364 U.S. 206 (1960)

8

Ringv. Arizona, 536 U.S. 610 (2002)

10

Saffle v. Parks, 494 U.S. 484, 110 S. Ct. 1257 (1990)

10

Schriro v. Summerlin, 124 S.Ct. 2519 (2004)
Swisher v. True, 325 F.3d 225 (4th Cir. 2003)
Teague v. Lane, 489 U.S. 288 (1989)
United States v. Curtis, 901 F.3d 846 (7th Cir. 2018)
United States v. Jones, 132 S.Ct. 945 (2012)

10, 11
12
9, 10
12
7, 8,11

United States v. Leyva, 2018 U.S. Dist. LEXIS 199327 (E.D. Mich. 2018)

12

Valerio v Dir. of the Dep't ofPrisons, 306 F3d 742 (9th Cir. 2002)

13

Regulations
18U.S.C. § 841(a)(1)
28 U.S.C. § 1254(1)
28 U.S.C. § 2255

.4
■2,3

passim

28 U.S.C. § 2255(f)(3)

6

28 U.S.C. Section 1654(a)

2

Rules
Supreme Court Rule 10

5,6

Supreme Court Rule 10.1(a)

6

vi

No:

3fn tlje

Supreme Court of tlje fintteb States!
STEPHEN HENDERSON,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Stephen Henderson, respectfully prays that a writ of certiorari is issued to
review the judgment of the United States Court of Appeals for the Eighth Circuit,
entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Eighth Circuit, whose judgment is
herein sought to be reviewed, is unpublished Henderson v. United States, No. 192806 (8th Cir. March 17, 2020) is reprinted in the separate Appendix A to this
petition.
The denial of Henderson’s Title 28 U.S.C. § 2255 in the Eastern District of
Missouri - St. Louis under Henderson v. United States, No. 4:19-CV-1788 CAS,
2019 U.S. Dist. LEXIS 156645 (E.D. Mo. Sep. 13, 2019) and is reprinted as
Appendix B to this petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on March 17, 2020.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a)
and 28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.

2

Id. Fifth Amendment U.S. Constitution
The Fourth Amendment to the Constitution of the United States provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no warrants shall issue, but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
$ * * * *

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing
thereon, determine the issues and make findings of fact and conclusions of
law with respect thereto.

3

Id. Title 28 U.S.C. § 2255
STATEMENT OF THE CASE
Steven Henderson was convicted after a jury trial for conspiracy to distribute
and possess with intent to distribute, in excess of five kilograms of cocaine, and
distributing over five kilograms of cocaine, in violation of Title 18 U.S.C. §
841(a)(1), 846, and 851(a). The District Court sentenced Mr. Henderson to life
incarceration. On April 24, 2012, Henderson filed a Title 28 U.S.C. § 2255
alleging several instances of ineffective assistance of counsel.1 After a hearing, the

Ground One: Ineffective assistance during the plea negotiations.
Ground Two: Ineffective assistance during pre-trial in drafting and advising him to
execute a “Verified Claim to Property in Forfeiture Complaint,” wherein movant
signed under penalty of perjury that he was in possession and the owner of
currency and jewelry seized by the agents in the accompanying forfeiture case.
Ground Three: Ineffective assistance in failing to raise and litigate the meritorious
issue that his statements should have been suppressed.
Ground Four: Ineffective assistance in failing to fully investigate his case by
reviewing all applicable discovery and in failing to be prepared to litigate the case.
Ground Five: Ineffective assistance in failing to plead, litigate, and preserve
movant’s meritorious motions to suppress evidence, including issues related to his
lack of consent to the search of the Sieloff residence, the improper use of GPS
monitoring, and failure to present him to a neutral magistrate to determine if there
was probable cause of his arrest.
Ground Six: Ineffective assistance in failing to adequately litigate the exclusion of
improper character evidence at trial.
Ground Seven: Ineffective assistance - cumulatively.
4

court denied all the claims and subsequently, this court denied the request for a
writ of certiorari.
Post denial, this Court entered a decision in Carpenter v. United States, 138 S.
CT. 2206 (2018). Carpenter determined that individuals have a reasonable
expectation of privacy in their cells-site location information and that obtaining
such information constitutes a search requiring a warrant. Id. at 2220. Cells-site
locations were critical for the government to be able to investigate and prosecute
Henderson. As such, Henderson filed a second or successive 2255 in light of
Carpenter and its retroactive application to his case. The District Court and the
Appellate Court denied the requests to entertain the matter. The merits of the
Carpenter claim have never been addressed in this case.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE EIGHT
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but ofjudicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while

5

neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a) When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)
QUESTIONS PRESENTED
1. Should this Court’s decision in United States v. Jones, 132 S.Ct. 945
(2012), (placement of GPS monitoring on a vehicle and cells-site tracking
without a warrant constitutes an improper search) and Carpenter v. United
States, 138 S. CT. 2206 (2018) (individuals have a reasonable expectation
of privacy in their cells-site location information and that obtaining such
information constitutes a search requiring a warrant), be applied
retroactively under Title 28 U.S.C. § 2253.
In light of Carpenter’s precedent, Henderson filed his motion to vacate his
sentence under Title 28 U.S.C. § 2255(f)(3) which the District Court denied
without briefing under the theory that the filing was a second or successive 2255,
however, the district court did not forward the petition to the Eight Circuit and that
court did not consider the merits either. In light of Carpenter’s precedent Title 28
U.S.C. § 2255(f)(3) should have been granted and if appropriate, relief granted.

6

In February 2008, the Drug Enforcement Agency “DEA” commenced an
investigation into a drug trafficking operation in St. Louis County, Missouri. The
investigation utilized numerous confidential informants, one of whom implicated
Henderson as being a source of cocaine. Following information developed through
a proffer with the confidential informant, the DEA agents began surveillance of
Henderson by utilizing recording devices and other investigative techniques,
including GPS tracking and cells-site tracking data from Henderson’s cell phone.
No warrant was ever sought before the placement of any GPS tracking device nor
for the cells-site tracking information.
Specifically, in February 2008, federal agents planted a “homing device” or
GPS monitor on Henderson’s truck without a warrant or court authority. Informant
Shelton testified that on February 20, 2008, agents had him take Henderson to a
gas station while the agents planted a “homing device” in his car. (Tl: 124, 128,
130). The agents extensively surveilled Henderson for nineteen days to learn
where he was going and who his “source” was. They tracked all his movements,
even the non-criminal related movements. After surveilling and tracking
Henderson, the agents were able to obtain a warrant for his arrest. (Tl: 146, T2:
112-113). This type of placement of GPS monitoring on a vehicle and cells-site
tracking without a warrant constitutes an improper search and seizure under the
Fourth Amendment. United States v. Jones, 132 S.Ct. 945 (2012). Even with a

7

blatant Fourth Amendment violation present, none of Henderson’s prior counsel’s
addressed the issue. Jones, 132 S.Ct. 945 (2012) determined that the placement of
a GPS monitor on a vehicle without a warrant constitutes an improper search and
seizure under the Fourth Amendment, id. When the claim was preserved on the
original Title 28 U.S.C. § 2255, it was denied since Jones had been decided after
three years after the trial. Carpenter following Jone’s precedent, has a retroactive
effect. Carpenter strikes at the heart of Henderson’s case.
Although Carpenter was decided after Henderson’s case became final, the
implications of the Carpenter affect the final determination of this case. The
Fourth Amendment protects individuals against unjust Government invasions of a
person's reasonable sphere of privacy. Davis v. United States, 564 U.S. 229, 22930, 131 S. Ct. 2419, 180 L. Ed. 2d 285 (2011). Before Carpenter, the Fourth
Amendment was somewhat silent regarding the consequence of law enforcement
seeking to use illegally obtained evidence at trial. Id. The creation of the
exclusionary rule logically followed to enforce the Fourth Amendment. The
exclusionary rule's "sole purpose ... is to deter future Fourth Amendment
violations," not to punish or make amends for mistakes. Davis, 564 U.S. at 236-37;
Elkins v. United States, 364 U.S. 206, 217, 80 S. Ct. 1437, 4 L. Ed. 2d 1669 (1960)
("calculated to prevent, not to repair"). There was no excuse for the lack of
warrant in Henderson’s case. Absent the violation, a conviction could not have

8

been secured. Since the facts in Carpenter are squarely on point with the matter
before this Court, Henderson will not discuss the Court's reasoning in depth.
Rather, for our purposes, what matters most is the Court's holding that individuals
have a reasonable expectation of privacy in their cells-site location information and
that obtaining such information constitutes a search requiring a warrant. Id. at
2220. Henderson argues that the officers' failure to obtain a warrant before
acquiring his cell site location information constituted an illegal search that
severely affected his Fourth Amendment Rights.
Under the principles outlined in Teague v. Lane, 489 U.S. 288, 109 S. Ct.
1060, 103 L. Ed. 2d 334 (1989), "the retroactivity of our criminal procedure
decisions turn on whether they are novel." Carpenter is novel in nature. Chaidez v.
United States, 568 U.S. 342, 347, 133 S. Ct. 1103, 185 L. Ed. 2d 149 (2013).
"When we announce a 'new rule,' a person whose conviction is already final may
not benefit from the decision in habeas or similar proceeding." Id. The Supreme
Court recognizes two exceptions to the Teague formulation: "watershed"
procedural rules and new rules that implicate the type of individual conduct the
government may proscribe (i.e., a substantive, rather than procedural, rule).
Teague, 489 U.S. at 311.

The Carpenter decision carved out a new understanding

of the Fourth Amendment, as it applies to wireless cells site data. This was not a
new rule but an extension of the Fourth Amendment to a new set of facts, cells site

9

locations. The Court did not merely implement a new rule to change how warrants
are secured. The Supreme Court merely extended constitutional protections to
newer technology.
Under Teague, a case announces a “new rule” (1) when “it breaks new ground
or imposes a new obligation” on the government, or (2) “if the result was not
dictated by precedent existing at the time the defendant’s conviction became final.”
Teague, 489 U.S. at 301 (emphasis added). Clearly, the new application explained
in Carpenter, did not impose a new rule on the government. It merely extended
the original intentions of the constitution. In essence, secure a warrant before
tracking a cells-site, just as in any other constitutional protected search.
This Court’s decision in Teague provides an exception to non-retroactivity for
“those procedures that are implicit in the concept of ordered liberty.” Id. 489 U.S.
at 311 (internal citations omitted). As the Supreme Court has explained, such rules
vindicate two discrete concerns: the “fundamental fairness” of the underlying
criminal proceeding; and the “accuracy” of that proceeding. Saffle v. Parks, 494
U.S. 484, 110 S. Ct. 1257 (1990). In Schriro v. Summerlin, 124 S.Ct. 2519, 25242525 (2004), the Court did not dispute that its decision in Ring v. Arizona, 536
U.S. 610 (2002), which applied Apprendi to Arizona’s capital sentencing scheme,
was “fundamental,” Summerlin, 124 S.Ct at 2523, or that it satisfied the first part
of the Teague exception for “‘watershed rules ... implicating fundamental

10

fairness.” Id. However, the Court declined to apply Ring retroactively because it
found that given the at the Arizona statute required a judge to make the relevant
findings beyond a reasonable doubt - the second part of the Teague exception,
which calls for the enhancement of accuracy, was not satisfied. Summerlin, 124
S.Ct. at 2525 (rejecting conclusion that “judicial fact-finding [alone] so ‘seriously
diminishes accuracy’” as to meet the second prong of the Teague exception); id. at
2522 n.l. In this case, the facts are not judicial fact-finding, but constitutional
protections.

The “enhancement of accuracy” by requiring judicial oversight

before the search, satisfies Teague’s exception.
As this court decided in Carpenter:
A person does not surrender all Fourth Amendment protection by venturing
into the public sphere. To the contrary, “what [one] seeks to preserve as
private, even in an area accessible to the public, may be constitutionally
protected.” Katz, 389 U. S., at 351-352, 88 S. Ct. 507, 19 L. Ed. 2d 576. A
majority of this Court has already recognized that individuals have a
reasonable expectation of privacy in the whole of their physical movements.
Jones, 565 U. S., at 430, 132 S. Ct. 945, 181 L. Ed. 2d 911 (Alito, J.,
concurring in judgment); id., at 415, 132 S. Ct. 945, 181 L. Ed. 2d 911
(Sotomayor, J., concurring). Prior to the digital age, law enforcement might
have pursued a suspect for a brief stretch, but doing so “for any extended
period of time was difficult and costly and therefore rarely undertaken.” Id.,
at 429, 132 S. Ct. 945, 181 L. Ed. 2d 911 (opinion of Alito, J.). For that
reason, “society’s expectation has been that law enforcement agents and
others would not—and indeed, in the main, simply could not—secretly
monitor and catalogue every single movement of an individual’s car for a
very long period.” Id., at 430, 132 S. Ct. 945, 181 L. Ed. 2d 911.
Carpenter v. United States, 138 S. Ct. 2206, 2217 (2018).

11

This protection, the Fourth Amendment right, strikes at the heart of the Teague
exception. Cases after Carpenter have either assumed or explicitly found that
Carpenter is retroactive. United States v. Leyva, 2018 U.S. Dist. LEXIS 199327,
2018 WL 6167890 (E.D. Mich. Nov. 26, 2018) (stating that Carpenter is
retroactive); United States v. Curtis, 901 F.3d 846 (7th Cir. 2018).
2. Should a writ of certiorari be granted in light of Miller-El v. Cockrell,
123 S. Ct. 1029 (2003).
This court’s opinion in Miller-El made clear that whether to grant a COA is
intended to be a preliminary inquiry, undertaken before full consideration of the
petitioner's claims. Id. at 1039 (noting that the "threshold [COA] inquiry does not
require full consideration of the factual or legal bases adduced in support of the
claims"); Id. at 1040 (noting that "a claim can be debatable even though every
jurist of reason might agree after the COA has been granted and the case has
received full consideration, that petitioner will not prevail") (emphasis added); Id.
at 1042 (noting that "a COA determination is a separate proceeding, one distinct
from the underlying merits"); Id. at 1046-47 (Scalia, J., concurring) (noting that it
is erroneous for a court of appeals to deny a COA only after consideration of the
applicant's entitlement to habeas relief on the merits). Indeed, such as "full
consideration" in the course of the COA inquiry is forbidden by § 2253(c). Id. at
1039 ("When a court of appeals sidesteps [the COA] process by first deciding the
merits of an appeal, and then justifying its denial of a COA based on its
12

adjudication of the actual merits, it is, in essence, deciding an appeal without
jurisdiction.") Swisher v. True, 325 F.3d 225, 229-30 (4th Cir. 2003).
Here the Eight Circuit needed only agree that based on the record, Henderson
was entitled to have the case proceed further, not that he will be victorious on the
merits of his claims. Even if the District Court denied all the claims without an
evidentiary, (which was an error in this case) the Eight Circuit had the authority to
grant the relief and expand upon it. Valerio v Dir. of the Dep't ofPrisons, 306 F3d
742 (9th Cir. 2002), cert den (2003) 538 US 994, 155 L Ed 2d 695, 123 S Ct 1788)
(court of appeals not only has the power to grant COA where the district court has
denied it as to all issues but also to expand COA to include additional issues when
the district court has granted COA as to some but not all issues.) This is especially
beneficial to Henderson since the records create more doubts than it addressed.
As such, this court must agree that a writ of certiorari should be granted to
the Eight, remanding for a Certificate of Appealability to allow this specific
argument of Carpenter to proceed further.

13

CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the Eight Circuit and the District
Court to address the matters of the issues filed herein.
Done this

3_, day of June 2020.

Stephen Henderson
Reg. # 34996-044
USP Coleman II
P.O. Box 1034
Coleman, Florida 33521

14

